fan

C@OCKLE

2311 Douglas Street Le ga | Brie fs E-Mail Address:

Omaha, Nebraska 68102-1214 Est. 1923 contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850 No. 19-676

JOSEPH A. ZADEH & JANE DOE,
Petitioners,

v.
MARI ROBINSON, SHARON PEASE & KARA KIRBY,
Respondents.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 20th day of December, 2019, send
out from Omaha, NE 2 package(s) containing 3 copies of the BRIEF OF CROSS-IDEOLOGICAL GROUPS DEDICATED.
TO ENSURING OFFICIAL ACCOUNTABILITY, RESTORING THE PUBLIC’S TRUST IN LAW ENFORCEMENT,
AND PROMOTING THE RULE OF LAW AS AMICI CURIAE IN SUPPORT OF PETITIONERS in the above entitled case.
All parties required to be served have been served by Priority Mail. Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:
CLARK M. NEILY Hl CATHERINE E. STETSON
JAY R. SCHWEIKERT KYLE M. DRUDING
Counsel of Record HOGAN LOVELLS US LLP
CATO INSTITUTE 555 Thirteenth Street, N.W.
1000 Mass. Ave., N.W. Washington, D.C. 20004
Washington, DC 20001 (202) 637-5491
(202) 216-1461 cate.stetson@hoganlovells.com

jschweikert@cato.org
Counsel for Amici Curiae

Subscribed and sworn to before me this 20th day of December, 2019.
1 am duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary : ‘
State of Nebraska . Loe Qudraw
My Commission Expires Nov 24, 2020 a .

Notary Public Affiant 39168

 
19-676

JOSEPH A. ZADEH & JANE DOE,

Petitioners,
Vv.

Mari ROBINSON, SHARON PEASE & KARA KIRBY,
Respondents.

Paul Whitfield Hughes
McDermott Will & Emery
500 North Capitol Street, NW
Washington, DC 20001
PHughes@mwe.com

(202) 756-8981

Counsel for Petitioners

Kyle Douglas Hawkins

Texas Attorney General's Office
P.O. Box 12548 (MC 059)
Austin, TX 78711-2548
kyle.hawkins@oag.texas.gov
(512) 936-1700

Counsel for Respondents
